rn H
!.

f.

U'KOl
NOV 212023

L.
\^S

No. 20-

'-

K7-

i

OFFICE OF THE m Fty?

3ht tl)t

Supreme Court of tfje fHntteb States!
JESSICA ARONG O’BRIEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI

Jessica Arong O’Brien
Petitioner Pro Se
1131S. Park Terrace
Chicago, IL 60605
(312) 965-9604
1 7cr239obrien@gmail. com

November 25,2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
DEC - * 2020

gasffiva&Sifl£

1

QUESTIONS PRESENTED
Petitioner was indicted on one count each of mail
and bank fraud, days from the ten-year statute of
limitation since selling her real properties in 2007. The
indictment duplicitously fused together non-bank and
bank transactions, all of which were out-of-statute
except for her buyer’s home equity line of credit or
HELOC. Buyer alone executed his HELOC HUD-1,
while the HUD-1 Petitioner and buyer jointly-executed
indicated non-bank lender for buyer’s two loans. Lower
courts disregarded the government’s own documentary
and testimonial evidence that Petitioner could not have
known about her buyer’s HELOC lender. Petitioner’s
convictions instead were affirmed under § 1344(2) citing
the Loughrin v. U.S., 353 U.S. 351 (2014) holding and
U.S. v. Bouchard, 828 F.3d 116 (2d Cir. 2016) dicta,
imputing purported industry knowledge to conclude
Petitioner knew that lender for buyer’s HELOC was
federally-insured. The Questions Presented are:
1. Whether under Loughrin, a real estate seller’s
knowledge of her buyer’s federally-insured lender
may be imputed to sustain a conviction under § 1344,
thereby omitting proof of actual knowledge.
2. Whether bank and mail fraud are continuing
offenses pursuant to Toussie v. U.S., 397 U.S. 112
(1970), that allow the government to circumvent stat­
utes of limitations by aggregating non-bank and bank
transactions as a “scheme” involving different parties
and transactional purposes.
3. Whether mail fraud or bank fraud is duplici­
tous, vague and confusing to a jury when it combines
four to five un-related non-bank and bank transactions,
all of which are outside of the statute of limitations
except one, into a single count.

11

LIST OF PROCEEDINGS
United States Court of Appeals for the Seventh Circuit
No. 19-1004
United States of America, Plaintiff-Appellee,
v. Jessica Arong O’Brien, Defendant-Appellant.
Opinion: March 13, 2020
Rehearing Denial: September 1, 2020

United States District Court for the Northern District of
Illinois Eastern Division
No. 17 CR 239-1
United States of America, Plaintiff,
v. Jessica Arong O’Brien, Defendant.
Post-Trial Opinion: September 4, 2018
Verdict: February 15, 2018

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED......................

1

LIST OF PROCEEDINGS.........................

11

TABLE OF AUTHORITIES......................

vm

OPINIONS BELOW..................................

1

JURISDICTION.........................................

1

STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE...................

4

A. Introduction....................................................

4

B. Procedural History........................................

5

C. Statement of Facts............................... .........

6

1. No Scheme Evidence................................

7

2. No Evidence of Intent to Deceive a
Federally-Insured Lender....................... 10
D. No Evidence That Petitioner Knew of
Citibank’s Involvement................................. 11
E. No Evidence That the 2007 Loans Affected
a Federally-Insured Lender.......................... 12
1. Taylor’s Perjured Testimony................... 12
2. Non-Bank CMALT Property Funded
Kwan’s Loans and Was the Entity
Affected by the 2007 Loans..................... 14
3. No Evidence of Concealment of Bartko
by Means of a Straw-Buyer..................... 15
4. No Evidence of Knowledge About Kwan’s
Ability to Qualify for Loans..................... 17

IV

TABLE OF CONTENTS - Continued
Page
5. No Evidence of Inflation of the Sales
Price for the Property.............................. 18
6. No Evidence of Kick-Back....................... 18
REASONS FOR GRANTING THE PETITION...... 19
I.

The Seventh Circuit’s Decision Expands
the Holding in U.S. v. Loughrin by
Providing Additional Exemptions of
Proof to the Government That Effec­
tively Encompass Transactions without
Any Real Connection to a FederallyInsured Institution....................................

19

II. The Lower Court’s Decision to Affirm
the Government’s Scheme to Defraud
Allegation Gives the Government
Unconditional Authority to Disregard
Statutes, This Court’s and Lower Courts’
Opinions, Federalism and the Consti­
tution............................................................. 27
III. The Aggregation of Distinct, Com­
pleted Transactions into a Single Count
Constituted Improper Duplicity Which
Deprived Petitioner of Constitutional
Rights............................................................ 34
CONCLUSION.... ..................................................... 37

V

TABLE OF CONTENTS - Continued
Page
Opinions and Orders
Opinion of the United States Court of Appeals for
the Seventh Circuit (March 13, 2020)............. la
Memorandum Opinion & Order of the United
States District Court for the Northern District
of Illinois (September 4, 2018)......................... 20a
Decision of the United States District Court for
the Northern District of Illinois
(February 15, 2018).......................................... 67a
Memorandum Opinion & Order of the United
States District Court for the Northern District
of Illinois on Statute of Limitation
(January 29, 2018)............................................. 68a
Memorandum Opinion & Order of the United
States District Court for the Northern District
of Illinois on Duplicity (November 9, 2017).... 92a
Rehearing Order
Order of the United States Court of Appeals for
the Seventh Circuit Denying Petition for
Rehearing En Banc (September 1, 2020)
117a

VI

TABLE OF CONTENTS - Continued
Page

Trial Documents
Final Jury Instructions, Excerpts
(February 14, 2018).....................
O’Brien Indictment
(April 11, 2017).............................
HUD-1 Settlement Statement Refinance Transaction (October 18, 2005)....
HUD-1 Settlement Statement Sale Transaction (April 16, 2007)...................
HUD-1 Settlement Statement Second Mortgage
(April 16, 2007)..................................................
Commitment to Insure Title (March 7, 2007)......
ATG Commitment Form-Schedule A
(Issued on April 16, 2007)

118a
120a
132a

135a
140a
144a

147a

Acknowledgment and Agreements Between Chris­
topher Kwan/Maria Bartko (“Buyers”) and
Jessica O’Brien (“Seller”) (April 16, 2007).....149a
IRS 1098 Form Information
(File Date May 2, 2008)...................... ............ 151a
ATG Agency/Escrow Disbursement Agreement
(April 16, 2007)................................................. 153a

Vll

TABLE OF CONTENTS - Continued
Page

Other Documents
Federal Bureau of Investigation FD 302 Report
(Appraiser) (March 29, 2017)
155a
(Document# 147-4)...........
DiCosola Indictment, Excerpts
(April 16, 2007)...................

158a

DiCosola Docket Wherein Matthew Francis Madden
161a
Shown as Lead Counsel
Bartko-Kwan Joint Checking Account Welcome
161a
Letter (April 16, 2007)
ATG Lender Transmittal
163a
(April 16, 2007)...........
Letter from Citigroup to AUSA Madden CitiMortgage Losses for Christopher Kwan’s Loans
165a
(September 25, 2015)

Vlll

TABLE OF AUTHORITIES
Page
CASES
Loughrin v. United States,
353 U.S. 351 (2014)...............................

passim

Toussie v. United States,
397 U.S. 112 (1970)...............................

passim

United States v. Ajayi,
808 F. 3d 1113 (7th Cir. 2015)...........

32

United States v. Anderson,
188 F.3d 886 (7th Cir. 1999)...............

32, 33, 35

United States v. Bouchard,
828 F.3d 116 (2d Cir. 2016).................

passim

United States v. Buchmeier,
255 F.3d 415 (7th Cir. 2001)...............

36

United States v. Campbell,
279 F.3d 392 (6th Cir. 2002)...............

36

United States v. Dicosola,
867 F.3d 793 (2017)...............................

13

United States v. Frequency Elecs.,

862 F.Supp. 834 (E.D.N.Y. 1994).....

33

United States v. Hughes,
310 F.3d 557 (7th Cir. 2002)...............

34

United States v. James,
749 F. Supp. 2d 705 (S.D. Ohio 2010)

36

United States v. Miro,
29 F.3d 194 (5th Cir. 1994).................

33

United States v. Najjor,
255 F.3d 979 (9th Cir. 2001)...............

34

IX

TABLE OF AUTHORITIES - Continued
Page
United States v. Niven,
952 F.2d 289 (9th Cir. 1991)....

33

United States v. O’Brien,
No. 19-1004 (7th Cir. 2020)....

26

United States v. Orzechowski,
547 F.2d 978 (7th Cir. 1976)....

34

United States v. Otto,
742 F.2d 104 (3rd Cir. 1984)....

34

United States v. Reitmeyer,
356 F.3d 1313 (10th Cir. 2004)

33

United States v. Scarano,
975 F.2d 580 (9th Cir. 1992)....

33

United States v. Serpico,
320 F.3d 691 (7th Cir. 2003).......

13

United States v. Smith,
740 F.2d 734 (9th Cir. 1984)....

33

United States v. St Gelais,
952 F.2d 90 (5th Cir. 1992)......

33

United States v. Vam,
13CR167 (N.D. IL)......................

13, 14

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V
U.S. Const. Art. 1, §§ 9, 10

37
4, 28, 29

X

TABLE OF AUTHORITIES - Continued
Page

STATUTES
12 U.S.C. § 1422
15U.S.C. § 662..
18 U.S.C. § 20....
18 U.S.C. § 1341
18 U.S.C. § 1344
18 U.S.C. § 3282
18 U.S.C. § 3293
28 U.S.C. § 1254

3
3
3, 7, 20
..2, 4,7
passim
4, 7, 30
4, 7, 29
1

JUDICIAL RULES
Fed. R. Crim. P. 12(b)(3)(B)(i)

34

OTHER AUTHORITIES
Citigroup, Inc., 2007 10-K report
at www.sec.gov (accession file#:001-09924),

13

CMALT 10-K report
at www.sec.gov (accession file#000-16107)

14

Pub. L. 111-21.......................................................... 20, 30

1

OPINIONS BELOW
The Opinion of the United States Court of Appeals
for the Seventh Circuit, dated March 13, 2020, is
included below at App.la. A jury in the Northern
District of Illinois convicted Petitioner on two counts
on February 15, 2018. (App.67a). Pretrial, the trial
court issued opinions on challenges to the statute of
limitations, dated January 29, 2018 (App.68a); and
on duplicity, dated November 9, 2017 (App.92a). The
trial court also denied a post-trial motion to dismiss
on September 4, 2018. (App.20a).

JURISDICTION
The Seventh Circuit issued an order denying a
timely filed petition for rehearing on September 1,
2020. (App.ll7a). This Court has jurisdiction under
28U.S.C. § 1254.

STATUTORY PROVISIONS INVOLVED
18 U.S.C. § 1344.—Bank fraud
Whoever knowingly executes, or attempts to exe­
cute, a scheme or artifice—
(1) to defraud a financial institution; or
(2) to obtain any of the moneys, funds, credits,
assets, securities, or other property owned by,

2

or under the custody or control of, a financial
institution, by means of false or fraudulent
pretenses, representations, or promises;
shall be fined not more than $1,000,000 or impris­
oned not more than 30 years, or both.
18 U.S.C. § 1341.—Frauds and swindles
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses, representations, or promises, or to
sell, dispose of, loan, exchange, alter, give away,
distribute, supply, or furnish or procure for un­
lawful use any counterfeit or spurious coin, obli­
gation, security, or other article, or anything
represented to be or intimated or held out to be
such counterfeit or spurious article, for the pur­
pose of executing such scheme or artifice or
attempting so to do, places in any post office or
authorized depository for mail matter, any matter
or thing whatever to be sent or delivered by the
Postal Service, or deposits or causes to be
deposited any matter or thing whatever to be
sent or delivered by any private or commercial
interstate carrier, or takes or receives therefrom,
any such matter or thing, or knowingly causes to
be delivered by mail or such carrier according to
the direction thereon, or at the place at which it
is directed to be delivered by the person to whom
it is addressed, any such matter or thing, shall
be fined under this title or imprisoned not more
than 20 years, or both. If the violation affects a
financial institution, such person shall be fined
not more than $1,000,000 or imprisoned not more
than 30 years, or both.

3

18 U.S.C. § 20.—Financial institution defined
As used in this title, the term “financial institution”
means—
(1) an insured depository institution (as defined
in section 3(c)(2) of the Federal Deposit Insur­
ance Act);
(2) a credit union with accounts insured by the
National Credit Union Share Insurance
Fund;
(3) a Federal home loan bank or a member, as
defined in section 2 of the Federal Home Loan
Bank Act (12 U.S.C. § 1422), of the Federal
home loan bank system;
(4) a System institution of the Farm Credit
System, as defined in section 5.35(3) of the
Farm Credit Act of 1971;
(5) a small business investment company, as
defined in section 103 of the Small Business
Investment Act of 1958 (15 U.S.C. § 662);
(6) a depository institution holding company
(as defined in section 3(w)(l) of the Federal
Deposit Insurance Act;
(7) a Federal Reserve bank or a member bank
of the Federal Reserve System;
(8) an organization operating under section 25 or
section 25(a) [l] of the Federal Reserve Act; or
(9) a branch or agency of a foreign bank (as such
terms are defined in paragraphs (l) and (3)
of section l(b) of the International Banking
Act of 1978);

4

18 U.S.C. § 3293.—Financial institution offenses
No person shall be prosecuted, tried, or punished
for a violation of, or a conspiracy to violate—
[...]
(2) section 1341 or 1343, if the offense affects a
financial institution; or
[...]
unless the indictment is returned or the infor­
mation is filed within 10 years after the commis­
sion of the offense.
18 U.S.C. § 3282.—Offenses not capital
a) In General.—Except as otherwise expressly
provided by law, no person shall be prosecuted,
tried, or punished for any offense, not capital,
unless the indictment is found or the information
is instituted within five years next after such
offense shall have been committed.

STATEMENT OF THE CASE
A.

Introduction

The issues presented herein provide the Court
with the opportunity to resolve clashing decisions
between circuits regarding the application of the
Toussie test and the Loughrin decision. This Court’s
intervention is necessary to stop the growing number
of circuits from applying the continuing offense doctrine
so loosely that it circumvents the protections afforded
by statutes of limitation, the Ex Post Facto Clause

5

and federalism principles. As this issue has remained
unresolved for decades since Toussie, the government
has capitalized on the resulting disorder and muddled
precedents by openly disregarding Congressional intent,
statutory textual limitations and this Court’s Opinions
on statutes of limitations,
This case highlights the same risk of prosecutorial
abuse with this Court’s Loughrin decision. The govern­
ment easily blurred the “line at frauds” that required
“some real connection to a federally-insured bank”
whereby, Petitioner was the seller of her real estate
property, with no access and no involvement in the
buyer’s loans. During the sale, the definition of “fin­
ancial institution” for mail and bank fraud purposes
also did not include mortgage lending companies.
Moreover, from 2004 to 2007, these non-federally
insured mortgage companies funded their own loans
and even surpassed banks in national ranking of mort­
gage lending. As this Court recognized in Loughrin,
the element of “by means of’ in § 1344(2) is “dependent
almost entirely on context,” which is fertile grounds
for circuit conflicts. Specifically, the Seventh Circuit’s
Opinion is in direct conflict with the Second Circuit
decision. Therefore, this case merits the Court’s gui­
dance.
B.

Procedural History

On April 11, 2017, just days before the expiration
of a ten-year statute of limitations, Petitioner was
indicted on one-count each of mail and bank fraud.
The indictment alleged that Petitioner and co-defendant
Maria Bartko engaged in a scheme to defraud lenders
through false pretenses and misrepresentations regard­
ing four disconnected transactions, each separately

i

6

completed at specific times between 2004 and 2007.
The government asked Petitioner to waive the statute
of limitations before filing its indictment. She declined.
On May 11, 2007, Petitioner asked the government
for Giglio and Brady materials. None was provided
after its key witness Judy Taylor falsely testified.
The trial court denied Petitioner’s motions to dis­
miss on grounds of statute of limitations, duplicity
and pre-indictment delay. The trial court ruled that it
could use special jury instructions to “mitigate against
[t]he overall vice of duplicity” involved with the duplic­
itous allegations. (App.ll6a). The district judge however
denied Petitioner’s request for such special jury
instructions. Petitioner preserved for appeal her
motions on duplicity, on statute of limitations and for
judgment of acquittal.
A jury convicted Petitioner of bank and mail fraud.
She was sentenced to a year and a day in prison, two
years of supervised release and ordered to pay resti­
tution totaling $660,000. The verdict did not specify
which of the two subparagraphs of the bank fraud
statute Petitioner was guilty of violating. The Seventh
Circuit, however, specifically affirmed Petitioner’s bank
fraud conviction under § 1344(2), but was silent about
any violation under § 1344(l). The Seventh Circuit later
denied Petitioner’s Rehearing/En Banc Petition.
C.

Statement of Facts

To convict Petitioner of bank fraud, the govern­
ment was required to prove that Petitioner knowingly
schemed to (l) defraud a financial institution; and
(2) obtain any moneys, funds, or other property owned
by, or under the custody or control of a financial

7

institution. 18 U.S.C. § 1344. The § 1344 element of
“financial institution” was defined as “a [federally-]
insured depository institution . . . ,” at the time the
alleged scheme occurred. 18 U.S.C. § 20.
The applicable statute of limitations for mail fraud
pursuant to 18 U.S.C. § 1341 differs depending upon
whether a financial institution is involved. Given that
the indictment occurred just days before the ten-year
statute of limitations, the government needed to prove
that Petitioner used the mail to knowingly engage in a
scheme to defraud that affected a financial institution.
The limitation on mail fraud not involving a financial
institution is five years. 18 U.S.C. §§ 3293, 3282.
The government’s failure to prove beyond a rea­
sonable doubt a violation of these statutes can be
broken down into the following six elements:
1. No Scheme Evidence
Petitioner’s conviction resulted from the govern­
ment’s straddling of four, separately completed transac­
tions described to invoke a “continuing offense” that
supposedly constituted a scheme in violation of bank
and mail fraud statutes. Despite the “financial institu­
tion” element for these offenses, the majority of the
transactions did not involve a federally-insured finan­
cial institution. Moreover, all but the April 16, 2007
transaction were outside of the applicable statute of
limitations.
Key portions (App.9a-16a, 24a-34a) of the Seventh
Circuit’s Opinion are based upon facts that are con­
trary to the trial record and the government’s unsup­
ported arguments. Despite the district court’s mandate
that the government prove its straw-buyer allegation,

8

it notably did not call one witness with personal know­
ledge nor anyone who interacted with Petitioner, co­
buyer Christopher Kwan or his business partner
Bartko that would have given the jury and the courts
reliable evidence to base its convictions.
As detailed in Petitioner’s Rehearing Petition
(Case#19-1004:Doc.#49), the government compensated
for this by suborning Taylor’s perjured testimony to
establish a nexus between Petitioner and a bank and
by withholding exculpatory documents that would
have changed the case outcome.1 Taylor, who had no
personal knowledge or involvement in Kwan’s loans
or any part of the 2007 sale transaction, was the only
witness the government called to falsely establish the
“financial institution” nexus. The following outlines the
four transactions:
In 2004, thirteen years before the indictment,
Petitioner obtained non-bank mortgages to purchase
two properties on 46th and 54th Streets in Chicago
(collectively, the “Properties”). Neither Bartko nor
Kwan were involved with this transaction.
The government attempted to create a connection
between Petitioner and a bank by suborning Taylor’s
perjured testimony. Taylor falsely testified that Peti­
tioner’s 2004 purchase loan, originated by a non-FDIC
insured Argent Mortgage, was succeeded by FDICinsured Citibank. Non-FDIC insured CitiFinancial
Mortgage did, not Citibank. (App.l34a). CitiFinancial
was a primary subsidiary of Citigroup, Inc., another
1 Petitioner discovered the government’s pattern of deception when
she undertook her own representation, and raised the issue in her
Petition for Rehearing to the Seventh Circuit. (See 19-1004:
Doc.#49).

9

non-FDIC insured entity. (See 19-1004:Doc.#49). The
government knew Taylor’s testimony was perjured
because its own exhibit indicates that CitiFinancial,
not Citibank, was paid off in 2005, when Petitioner
refinanced her 2004 purchase loan. The Seventh Circuit
Opinion relied on Taylor’s perjured testimony to
conclude that Petitioner had prior dealings with
Citibank, when she did not. (App.l5a).
In 2005, twelve years before the indictment, Peti­
tioner’s non-bank purchase loans were fully-paid
when non-bank lenders refinanced them. (App. 132a134a). These 2005 non-bank refinance loans were later
serviced, but not succeeded, by another non-bank
mortgage company. No federally-insured institution
bore any risk of loss in the funding or succession in
Petitioner’s 2004 and 2005 transactions. Petitioner
therefore never obtained bank property.
Both the 2004 and 2005 transactions were origi­
nated and processed by mortgage companies that have
been out-of-business when Petitioner was indicted. Peti­
tioner was foreclosed from retrieving any documents
that could have aided in her defense. Notwithstanding,
no evidence in the record proved that Petitioner
schemed to defraud a bank or schemed to obtain bank
property for 2004 and 2005 transactions.
In 2006, eleven years before the indictment, Peti­
tioner obtained a $25,000 commercial line of credit
for her small business. The fully and timely paid
commercial credit line was open for five years after
the sale of the Properties. A federally-insured lender
provided this credit line, but Petitioner’s company
had no ownership interest in the Properties. Neither
Bartko nor Kwan were involved with this transaction.
There was no evidence showing that this commercial

10

line of credit was opened in furtherance of any kind
of scheme, nor is there evidence this loan had any
nexus to Petitioner’s 2004 and 2005 non-bank lenders,
and 2007 Kwan’s loans.
In April, 2007, Petitioner sold the Properties to
Bartko and Kwan. It is undisputed the April 17, 2007
sale of the 54th Street property did not involve or
affect any federally-insured institution. No bank fraud
could have been committed in connection with that
transaction. Yet, the government included the claimed
$345,000 non-bank loss to this transaction in Peti­
tioner’s restitution.
2. No Evidence of Intent to Deceive a FederallyInsured Lender
The government argued that the executing
transaction is the April 16, 2007 sale of the 46th Street
property involving Citibank, a federally-insured entity.
Despite the disconnection between this sale and the
2004, 2005, 2006 transactions, the government hitched
them to this sale and called it a “scheme,” regardless
that majority of them did not involve any financial
institutions and were all out-of-statute in 2007. Two
jury instructions also permitted a conviction based
on the non-bank and out-of-statute transactions.
(App.ll8a-119a). Notably, the 2007 loans are not
Petitioner’s loans. Instead, they are the buyer’s loans
and there was no evidence proving that Petitioner
participated in any scheme with Bartko, Kwan or
both, let alone evidence that she participated in
defrauding an FDIC-insured lender.

11

D.

No Evidence That Petitioner Knew of Citibank’s
Involvement

The government argued that Petitioner knowingly
deceived Citibank by presenting Kwan as the purchaser
of the 46th Street property, when he was only a strawbuyer for Bartko. The government further contended
that Kwan received two loans to purchase the 46th
Street property: a mortgage from non-federally insured
CitiMortgage and a HELOC from federally-insured
Citibank. Two key government witnesses, Citibank’s
Taylor and title company supervisor Patricia Woods,
testified that “[Petitioner] wouldn’t receive the loan
package from the lender” because “it’s none of [her]
business. The loan package is . . . for the buyer to sign
and review” and “[t]he borrower’s information is
private information.”
In FBI 302 reports, Kwan’s loan officer confirmed
Petitioner’s non-involvement with Kwan’s loans. Kwan
also told the government that he only dealt with Bartko
when completing and submitting his loan applications.
Despite these reports, the government argued the
opposite to the jury and the lower courts, without
providing any evidence. The government fabricated this
allegation and the Seventh Circuit relied on it in its
Opinion. Since the government never called Kwan,
Bartko, the loan officer, closer or underwriter for these
loans to testify at trial, there was no evidence for the
jury to ascertain Petitioner’s involvement with Kwan’s
loans or to support the lower courts’ opinions.
There is also uncontroverted documentary trial
evidence that Petitioner was only aware that Citi­
Mortgage was the lender for Kwan’s loans to purchase
46th Street property. Specifically, the only HUD-1
that Petitioner and Kwan signed together indicates

12

that non-federally insured CitiMortgage was the lender
for Kwan’s first and second loans. (App.l35a-137a).
Only Kwan signed the HUD-1 for his HELOC, which
indicates Citibank. (App. 140a-143a). Additionally, Peti­
tioner obtained the only title insurance policy for the
property that was issued at closing. The policy spe­
cifically only insured CitiMortgage as the lender for
Kwan’s first and second loans. (App.l44a-148a). The
Seventh Circuit however incorrectly assumed that the
HUD-1 that both Kwan and Petitioner signed indicated
that the lender was Citibank. It did not. (App. 135a139a).
Petitioner’s lack of knowledge about Kwan’s
HELOC is also confirmed by the timing of that transac­
tion. The HELOC was collateralized by Kwan’s equity
in the property. Taylor testified that Kwan would not
have been able to pledge the property as security for the
HELOC until after he owned it. Consequently, he could
not have obtained the HELOC until after Petitioner
conveyed the property to him, and after their dealings
were completed. When asked at oral argument about
evidence that Petitioner knew of Citibank’s involvement
with the HELOC, the government responded with
nothing more than speculation that Petitioner had to
have known because she was heavily involved. The
Seventh Circuit included that in its Opinion, despite
no supporting evidence on the record.
E.

No Evidence That the 2007 Loans Affected a
Federally-Insured Lender
1. Taylor’s Perjured Testimony

The government suborned Taylor’s perjured tes­
timony that Citibank was CitiMortgage’s “ultimate

13

parent” in a further effort to create a nexus between
Petitioner and a federally-insured lender. The govern­
ment knew that this testimony contradicted Taylor’s
testimony in another case prosecuted by the same
office, U.S. v. Vani, 13CR167 (N.D. IL). In Vani, Taylor
testified that CitiMortgage was a wholly-owned sub­
sidiary of Citigroup in 2007. {See Doc.#49Ex.5). This
is consistent with paragraph (e) of the Vani indictment:
“ . . . CitiMortgage, a wholly-owned subsidiary of Citi­
group [. . . ].” (See Doc.#49Ex.6).
Similarly, paragraph l(c) of the indictment in
U.S. v. Dicosola, 867 F.3d 793 (2017), also states, “Citi­
Mortgage, a subsidiary of Citigroup, was in the
mortgage-lending business.” (App.l59a). The lead prosecutor herein knew this because he was also the
lead prosecutor in Dicosola. (App.l60a).
The lead prosecutor nonetheless suborned Taylor’s
perjured testimony that CitiMortgage was not a lender,
but Citibank’s 2007 loan-servicing arm. The jury was
therefore falsely led to believe that loan funds came
from Citibank as CitiMortgage was only a loan servicer,
not a lender. Citigroup’s 2007 10-K filing with the SEC
(accession file#:001-09924) also lists Citibank, Citi­
Mortgage and CitiFinancial, each as principal subsid­
iaries of Citigroup in 2007. Citibank and CitiMortgage
were listed thereon not as parent and subsidiary, but as
equal level Citigroup subsidiaries. The lower courts’
reliance on U.S. v. Serpico, 320 F.3d 691 (7th Cir. 2003)
is therefore based on Taylor’s suborned perjured testi­
mony.
The government continued to fill in a non-existent
link between Petitioner and a federally-insured entity
by suborning Taylor’s perjured testimony that losses
on the 2007 CitiMortgage loan were incurred by Citi-

14

bank. The government knew this was false because it
was contrary to Taylor’s testimony in Vani. There,
Taylor testified that CitiMortgage incurred the losses
for its loans. (See Doc.#49Ex.5). Moreover, documentary
trial evidence reveals that CitiMortgage declared
interest income for Kwan’s loans, including the
HELOC. (App.l51a-152a). CitiMortgage’s IRS Form
1098 income declaration filing is unrebutted trial
evidence that CitiMortgage was the lender for both
Kwan’s loans and did take the loss. Under Subpoena,
Citigroup’s representative Tonya Cwach also informed
the government on September 25, 2015 that CitiMort­
gage took the loss for Kwan’s loans, including the
HELOC. (App.l65a-166a). The government nonetheless
argued the opposite, without evidence. The Seventh
Circuit again relied on this misrepresentation.
2. Non-Bank CMALT Property Funded Kwan’s
Loans and Was the Entity Affected by the
2007 Loans
Exculpatory documents withheld by the govern­
ment also show that yet another non-federally insured
entity, and not Citibank, bore the ultimate risk of loss
for both Kwan’s loans in the 2007 sale, including the
HELOC. That documentation, discovered by Petitioner
when she took over her representation, shows that
Kwan’s loans were owned by CitiMortgage Alternative
Loan Trust, Series 2007-A5 (“CMALT”), a non-federally
insured trust. See also CMALT 10-K report at www.
sec.gov (accession file#000-16107). CitiMortgage was
CMALT’s sponsor. This is consistent with the govern­
ment’s evidence identifying Kwan’s HELOC as “ThirdParty HELOC.” The CMALT Pooling and Servicing
Agreement designated Citibank the nominal admin­
istrative roles of paying agent and mortgage/note

15

custodian, where none of its bank property was ever
at risk. (See Doc.#49Ex.9). Citibank’s agreement was
to follow the CMALT’s payment instructions, for a fee.
Citibank’s function was also described in a Power of
Attorney, stating, “ ... the Loans may be in [Citibank’s]
name solely for the purpose of allowing the under­
signed to perform its servicing obligations on behalf
of such investors.” (See Doc.#49Ex.l4).
The government knew about the CMALT’s exist­
ence. The Justice Department’s 2014 $7-billion settle­
ment with Citigroup specifically included the CMALT
as an entity subject to that settlement. (See Doc.#49
Ex. 12) The settlement document further stated that
the government “collected nearly 25 million documents
relating to every residential mortgage-backed security
issued or underwritten by Citigroup in 2006 and 2007,”
including the CMALT. The government concealed
from Petitioner crucial exculpatory documentation
such as the CMALT trust indenture, which was further
evidence that Petitioner could not have knowingly
schemed to obtain bank property. (See Doc.#49Ex.9).
3. No Evidence of Concealment of Bartko by
Means of a Straw-Buyer
The government’s contention that Petitioner
presented Kwan as a straw-buyer and concealed
Bartko’s involvement with the transaction is contrary
to evidence and logic. Petitioner obviously made no
effort to conceal Bartko’s involvement because Bartko
was present at the closing.
Petitioner’s open treatment of Kwan and Bartko’s
co-buyer roles was also disclosed to the lender at the
closing through a written acknowledgment prepared by
Petitioner. The written acknowledgement was executed

16

by Petitioner, Kwan and Bartko in front of the closing
agent representing Kwan’s lender, Bonnie Pomrenze,
who notarized the document. The title of the acknow­
ledgment identifies Kwan and Bartko as buyers,
stating, “ACKNOWLEDGEMENT & AGREEMENTS
BETWEEN CHRISTOPHER KWAN/MARIA BARTKO
(‘Buyers’) AND JESSICA O’BRIEN (‘Seller’).” (App.
149a-150a). The signature line below Bartko’s signature
on the acknowledgement identifies her as “Maria
Bartko, Interested Third Party.” The signature line
below Kwan’s signature identifies him as “Buyer.”
Uncontroverted documentary evidence shows that the
parties presented these acknowledgments to Pomrenze
at the closing. The acknowledgments included Pomrenze’s signature and notary stamp.
Further, documentary evidence shows that as the
closing agent, Pomrenze represented the lender at the
closing, not Petitioner or the buyers. (App. 153a). Para­
graph two therein required Pomrenze to (l) forward
any documents presented to her at closing to Kwan’s
lender; and (2) inform Kwan’s lender if she became
aware of any previously undisclosed party with an
interest in the transactions. (See also Defense Ex. 75).
Pomrenze’s notation that she included “other docu­
ments” in the package she sent to CitiMortgage is
consistent with these instructions. (App.l63a-164a).
Pomrenze’s supervisor, Woods, who also trained her,
testified that Pomrenze should or would have presented
these acknowledgements to the lender, as she was
instructed. The government’s trial evidence shows that
the loan package was sent to non-bank CitiMortgage
the day after closing. (Doc.#231-2).
The government was able to diminish this excul­
patory evidence at trial when Taylor conveniently could

17

not find the acknowledgments in Citibank’s files when
asked to look for them over ten years later. Just as
conveniently, the government never called Pomrenze
to testify about them. The trial court granted the
government’s motion in limine to prohibit Petitioner
from raising Citigroup and its subsidiaries’ misdeeds
and mishandling of its mortgage files.
Documentary evidence also shows that Kwan was
Bartko’s business partner, not her straw-buyer. Kwan
and Bartko had purchased two properties together
before purchasing Petitioner’s Properties. The dis­
trict court granted another government’s motion in
limine precluding Petitioner from raising Kwan/
Bartko prior joint ventures. The government also had
documentary evidence that Kwan and Bartko had joint
bank accounts (App.l61a-162a) and that Kwan assisted
Bartko with maintaining their joint properties. (See
also Doc.#49Ex.lO). The government did not call
Kwan, Bartko or any witness to support its strawbuyer allegation.
4. No Evidence of Knowledge About Kwan’s
Ability to Qualify for Loans
Uncontroverted evidence shows that Petitioner
had no knowledge of nor involvement with Kwan’s
loans, including his loan applications. Kwan and his
loan officer both confirmed with the government Peti­
tioner’s non-involvement. She would therefore have no
knowledge regarding Kwan’s ability to qualify for
those loans.

18

5. No Evidence of Inflation of the Sales Price for
the Property
There is no evidence to prove the government’s
allegation that Petitioner and Bartko inflated the
sales price of the Properties. During its investigation,
the government interviewed the lender’s appraiser, who
assessed the market value of the 46th Street property.
The appraiser told the government that his property
valuation was based upon comparable properties in the
area and the property condition, not based upon buyer
and seller agreements. (App.l55a-157a). Appraiser did
not know Bartko, Kwan and Petitioner. The govern­
ment never called the appraiser to testify.
6. No Evidence of Kick-Back
There was no evidence at trial showing that pay­
ments from Petitioner to Bartko were intended as
kick-backs. The government admitted checks that
Petitioner made payable to Bartko and Kwan. The
government’s witness, Woods, testified that this is not
uncommon in real estate transactions. Woods also tes­
tified that there is no way to amend a HUD-1 to reflect
these payments if they are negotiated post-closing,
nor were the parties required to do so. Neither Kwan,
Bartko nor Pomrenze were called to testify at trial
about this or any other matter.
The government instead called a bank represen­
tative for Petitioner’s checking account. He had no
knowledge of Petitioner, Bartko, Kwan or the trans­
actions. He testified about the authenticity of the
checks, but not their significance, lacking any know­
ledge about timing and reasons for the issuance of the
checks. There was never any testimony about the

19
checks’ purpose. Yet, the Seventh Circuit again
parroted the government’s unsupported arguments.
Unlike the Loughrin fact-pattern, there was no
stipulation in this case for the exception of the
exculpatory Acknowledgements.
This case presents the Court with the opportunity
to reverse a miscarriage of justice, for Petitioner, and
anyone whose actions could be scrutinized in perpetuity
if the government so chooses.

REASONS FOR GRANTING THE PETITION
I.

The Seventh Circuit’s Decision Expands the
Holding in U.S. v Loughrin by Providing
Additional Exemptions of Proof to the
Government That Effectively Encompass
Transactions without Any Real Connection to
a Federally-Insured Institution

The Court in US. v. Loughrin went to great
lengths to restrict the bank fraud statute from feder­
alizing garden-variety fraud cases that should be
prosecuted in state courts. The Seventh Circuit’s deci­
sion ignores both the Loughrin limitations and conflicts
with the Second Circuit’s decision in Bouchard, 828
F.3d at 116.
Like Petitioner, the Loughrin defendant was
convicted of bank fraud in violation of 18 U.S.C.
§ 1344(2). Unlike Loughrin, Petitioner did not stipulate
or admit to any crime and has argued throughout that
the government failed to prove that she committed mail
and bank fraud. Section 1344(2) requires that Petitioner

20

knowingly executed a scheme to obtain property from
a financial institution. “Financial institution” was
defined from 2004-2007 as a federally-insured financial
institution. 18 U.S.C. § 20.2
Loughrin held that the government is required
to prove intent to defraud for a conviction under sub­
section (l) of the statute, but not under subsection (2).
The Court differentiated the two subsections because
the element of fraud in subsection (l) required a
showing of intent. Without such language in subsection
(2), the Court reasoned that “nothing in the clause
additionally demands that a defendant have a specific
intent to deceive a bank.” Loughrin, 573 U.S. at 351.
The Court emphasized that the text of § 1344(2)
“limits its scope to deceptions that have some real
connection to a federally insured bank, and thus impli­
cate the pertinent federal interest.” Id. at 366. Seeking
to restrict an interpretation that would expand the
statute into the role traditionally filled by state
prosecutions, this Court further opined that, “we should
not construe § 1344(2) as a plenary ban on fraud,
contingent only on use of a check (rather than cash).”
Id. at 362. The Court further held that “[u]nder that
clause, it is not enough that a fraudster scheme to
obtain money from a bank and that he make a false
statement. The provision as well includes a rela­
tional component: The criminal must acquire (or
attempt to acquire) bank property “by means of’ the
misrepresentation. That phrase typically indicates
that the given result (the “end”) is achieved, at least
in part, through the specified action, instrument, or
2 This provision was not amended to include non-federally-insured
mortgage lenders until 2009. P.L. 111-21.

21
method (the “means”), such that the connection
between the two is something more than oblique,
indirect, and incidental.” Id. at 362-363. Thus, required
proof that a defendant engaged in a scheme to obtain
bank assets by means of a false statement which
caused the bank to give up those assets.
The Second Circuit construed Loughrin to hold
that false statements to a non-federally-insured affiliate
of a bank did not constitute bank fraud. U.S. v.
Bouchard, 828 F.3d 116 (2d Cir. 2016). In Bouchard,
the Second Circuit held that false statements made
to a non-federally-insured lending subsidiary of a
federally-insured bank did not violate § 1344(2).
Bouchard emphasized the Loughrin requirement that
the false statement must go to a federally-insured
bank, not its non-federally-insured affiliate, in order
to prevent federalization of state level fraud:
“[W]e are mindful that § 1344(2) should not
be read to ‘federaliz[e] frauds that are only
tangentially related to the banking system,’
which is § 1344”s core concern. Loughrin
[citation omitted] For that reason, and
particularly when bank subsidiaries may be
engaged in activities far afield of the core
functions of our federal banking system, it
is important (absent legislative direction to
the contrary) to distinguish subsidiaries of
banks from the banks themselves.” Bouchard,
828 F.3d at 126 (emphasis added).
Loughrin did not include an exception for false
representations made to a non-federally-insured sub­
sidiary where a defendant knew or should have known
the source of the subsidiary’s funds. Instead, Bouchard
stated only in dicta that:

22

“[T]he Government might have been able to
prove that Bouchard knew that money from
mortgage lenders came from banks by virtue
of his knowledge of the industry. But it
failed to make this argument or proffer evi­
dence of Bouchard’s extensive knowledge of
the real estate and mortgage lending industry
as a reason to convict him at trial.” Bouchard,
828 F.3d at 126.
That dicta did not enter into the resolution of the case.
It is therefore not binding.
The conviction of Petitioner without proof of a
nexus to a federally-insured entity within the ten-year
limitation is contrary to Loughrin and its emphasis
upon the need for federal subject-matter jurisdiction.
This is especially true, where the term “financial
institution” was defined during the applicable period
as a federally-insured institution. There was no evi­
dence showing that Petitioner intended to obtain bank
property. Instead, there is uncontroverted evidence
that Petitioner was only aware that CitiMortgage was
the buyer’s lender for both his loans. No evidence
shows, or could show, that Petitioner made statements
in 2007 directly or indirectly to any federally-insured
entity. The court’s opinion parroted the government’s
argument that Petitioner’s “intimate involvement in
the fraudulent scheme and the 2007 transactions—
that O’Brien knew that the funds for the April 2007
loans originated from Citibank.” (App.l5a). But there
is nothing on the record to support these arguments
because the government did not call a single witness
who was present at the closing, who was remotely
involved in the 2007 closings, or who was involved in
the loan application. Again, it is undisputed that the

23

only HUD-1 that Kwan and Petitioner signed together
identified, CitiMortgage, a non-federally-insured entity
for two mortgages that covered the sale price. (App.
135a-139a).
Still, the court insists that “[t]he HUD-1 form
O’Brien signed listed Kwan’s $73,000 loan, and HUD1 form for that loan expressly identified Citibank as
the lender.” As stated, this is simply not true.
(App.l35a-139a) & (App.l40a-143a).
Unlike Bouchard, there is uncontroverted docu­
mentary evidence in the trial record showing that
there was no reason for Petitioner to believe or know
that Kwan was obtaining a HELOC after she conveyed
the 46th Street property to him.
Additionally, the uncontroverted testimonial evi­
dence of the government’s own witnesses was that the
“sellers wouldn’t receive the loan package from the
lenders” because “it’s none of [her] business. The loan
package is . . . for the buyer to sign and review” and
“[t]he borrower’s information is private information.”
Unlike other documentation for the transactions, the
HUD-1 for Kwan’s HELOC was not signed by Peti­
tioner, demonstrating her non-involvement in that
transaction. In fact, it indicates $0.00 funds for the
seller. (App. 142a). It is also confirmed by the timing
of the HELOC transaction. Kwan could not have
obtained that line of credit until after Petitioner
conveyed the property to him, since his ownership of
the property was necessary to secure the HELOC.
Ultimately, the true lender was the non-federallyinsured CMALT, the entity that bore all the risk for
the 2007 loans or CitiMortgage as the CMALT sponsor,
and not Citibank acting in a nominal administrative

\

24

role. The byzantine structure of these loans included
a myriad of small, “moving parts” among numerous
entities that allowed the government to hide documents
without raising red flags. Consequently, the govern­
ment was able to hide the CMALT as the true funder
of the 2007 loans, even though the government knew
of its existence.
The only other evidence linking Petitioner to
Citibank was Taylor’s suborned perjury. As described
above, her testimony was contradicted by her testimony
in previous cases, other federal indictments, SEC
filings and a Justice Department settlement. Absent
Taylor’s false testimony, there was no evidence linking
Petitioner and a federally-insured entity necessary
for her conviction.
The remaining elements of the government’s
theory of Petitioner’s so-called scheme are also contra­
dicted by the record. The acknowledgments executed by
Petitioner, Bartko and Kwan and sent to CitiMortgage
demonstrate that Kwan was not a straw-buyer because
Bartko’s interest was open and disclosed. Similarly,
the government failed to produce evidence showing
that Petitioner’s so-called scheme involved a kick-back
to Bartko. It produced testimony about the authenticity
of certain checks, but nothing about their purpose.
The so-called scheme to inflate the purchase price for
the Properties was also debunked by the lender’s
appraiser.
Simply put, there could be no direct federal sub­
ject-matter jurisdiction if Petitioner did not know
about Citibank’s involvement with Kwan. Under
Loughrin and Bouchard, no conviction should have
occurred absent that knowledge. The “knowing” element
of a financial institution present in Loughrin is non-

25

existent in this case. The checks that Loughrin stole
bore the name of the financial institution that the
checks will be presented, the same financial institution
that will provide the property (money). The Seventh
Circuit reasoned that the seller-buyer relationship is
likened to Loughrin-check facts and circumstances.
And yet, the only HUD-1 that Kwan and Petitioner
signed indicated CitiMortgage, consistent with the
title insurance Petitioner was asked to order insuring
CitiMortgage for Kwan’s first and second loans. The
HELOC HUD-1 was only signed by Kwan.
The Seventh Circuit tracked the government’s
arguments that Petitioner was involved in the scheme
when no evidence supported this conclusion. The gov­
ernment did not call one witness who was present at
closing, no witness to testify about Bartko, Kwan and
Petitioner’s agreements, negotiations or any inter­
actions. The Seventh Circuit based its conclusions and
reasonings from the indictment that had prefatory
statements stated as if they were facts to be assumed
as true. The Seventh Circuit’s reasoning tracked the
government’s brief arguments that were not often
supported by the trial record.
The Seventh Circuit ignored key facts and trial
evidence, essentially opining that it does not matter
whether Petitioner actually knew of Citibank’s involve­
ment. It then seized on the Bouchard dicta to
improperly create federal subject-matter jurisdiction.
In so doing, it also exempted the government from
proving the remaining elements of 18 U.S.C. § 1344(2).
Quoting the Bouchard dicta, the Seventh Circuit held
that Petitioner’s purported real estate experience
implied knowledge that the funds for various trans­
actions originated with a federally-insured financial

26

institution, negating the Loughrin requirement that the
false statement go to that institution, not an affiliate:
“We conclude that a rational jury could find—
based on 0”Brien”s experience in the real
estate industry and with Citibank in partic­
ular, as well as her intimate involvement
in the fraudulent scheme and the 2007
transactions—that 0”Brien knew that the
funds for the April 2007 loans originated
from Citibank. In Bouchard,. .. [t]he Second
Circuit noted that ‘the Government might
have been able to prove that [the defendant]
knew that money from mortgage lenders
came from banks by virtue of his knowledge of
the industry’ but ‘failed to make this argument
or proffer evidence of [the defendant’s]
extensive knowledge of the real estate and
mortgage lending industry as a reason to
convict him at trial.’ . . . The government
provided precisely such evidence here.” US.
v. O’Brien, No. 19-1004, at *14-15 (7th Cir.
2020).
The Seventh Circuit’s use of this dicta to create
an exception to the requirement that a conviction
pursuant to § 1344 must include a false statement
which is intended to go to a federally-insured financial
institution conflicts with both Loughrin and Bouchard.
Concerned with the use of § 1344(2) to federalize
garden-variety fraud, Loughrin stressed that the
statute is limited to acquiring property by means of
false statements which are intended to go to a feder­
ally-insured financial institution. Bouchard’s ruling
was consistent with Loughrin’s admonition that
“where no false statement will ever go to a financial

27

institution, the fraud is not the means of obtaining
bank property.” Bouchard construed this holding to
preclude a conviction based on false statements to a
non-federally-insured affiliate of a bank. The Seventh
Circuit’s use of dicta to convict Petitioner upon her
purported knowledge and not upon a direct nexus to
a federally-insured lender improperly expands the
scope of the statute beyond the holdings in Loughrin
and Bouchard. Notably, the mortgage funding herein
came from a non-bank CMALT, proving its know­
ledge assumption to be false.
This case allows the Court to resolve the conflict
between the Seventh and Second Circuits as to the
interpretation and application of 18 U.S.C. § 1344(2)
in accordance with the Loughrin Opinion and provide
further guidance before more circuits follow the Seventh
Circuit’s ruling in this case.
II. The Lower Court’s Decision to Affirm the
Government’s Scheme to Defraud Allegation
Gives the Government Unconditional Autho­
rity to Disregard Statutes, This Court’s and
Lower Courts’ Opinions, Federalism and the

Constitution
The government’s indictment alleged a “scheme”
to defraud lenders that resurrected ten to thirteenyear old transactions, the majority of which did not
involve financial institutions as required by the bank
and mail fraud statutes. Because the government
needed the ten-year statute of limitation to apply, it
was likewise required to prove that the alleged scheme
affected a financial institution to prove mail fraud.
Despite this element, the lower courts allowed the
government to straddle 2004 to 2007 transactions

28

that did not involve or affect federally-insured institu­
tions. As explained below, the lower court’s decision
disregards applicable statute of limitations, duplicity
issues, the Ex Post Facto Clause, federal subject-matter
jurisdiction and stare decisis from its own circuit.
A scheme must involve some planning. It is
impossible to plan for something that is unforeseen.
There is no evidence that Petitioner knew, intended
or foresaw each of the separate transactions which
occurred after her purchase of the Properties. Absent
this, she could not have done the planning needed to
conduct the kind of continuing offense that allowed
the government to straddle four distinct transactions.
The Seventh Circuit’s decision allowing the gov­
ernment to broaden the use of “schemes” as a vehicle
to circumvent statutes of limitation and federal sub­
ject-matter jurisdiction will have a widespread delete­
rious effect. If it is left to stand, a citizen’s participa­
tion in a twenty-year old transaction could be used to
augment a weak government case twenty years later.
Lower courts will use this case as precedent to rule that
this is acceptable as long as the transactions are not
charged separately.
This Court has been blunt about the role that
statutes of limitation play in maintaining honest
prosecutions:
“[A] limitations is designed to protect indi­
viduals from having to defend . . . against
charges when the basic facts may have
become obscured by the passage of time and
to minimize the danger of official punishment
because of acts in the far-distant past. . . For
these reasons and others, we have stated

29

. . . “the principle that criminal limitations
statutes are 'to be liberally interpreted in
favor of repose’” Toussie v. U.S., 397 U.S. at
114 (1970).
A liberal interpretation of the statute of limitations
in favor of repose would never have allowed Petitioner
to be indicted for separate transactions that occurred
outside of the statute. The government’s April 16,
2007 executing transaction occurred nine years and
360 days before the indictment. The other transactions
in the scheme occurred eleven to thirteen years
before the indictment. The lower courts rationalized
the decision to allow this scheme to stand by explaining
that the expired transactions were not charged in
separate counts anyway. This means that whenever
the government alleges a “scheme”, it can use timebarred transactions, disregarding duplicity consider­
ations and inevitably confusing a jury. Here, it allowed
the government to bolster its weak case focusing on
expired transactions and then essentially arguing
propensity in its closing. Even more egregious, the gov­
ernment included transactions that had no federal
interest as part of its fabricated “scheme,” even
though the bank and mail fraud statutes required it to
show otherwise. Despite the government’s acknow­
ledgement that it did not have federal subject-matter
jurisdiction over these non-federally-insured lenders,
it proceeded with them anyway and the lower courts
gave their blessing on the government’s deleterious
use and abuse of this scheme application.
This is also a violation of the Ex Post Facto
Clause of the Constitution, retroactively applying the
2009 amendment to the financial institution definition
to transactions in prior years. 18 U.S.C. § 3293(b)

30

applies a ten-year limitation to prosecutions for bank
and mail fraud involving “financial institutions.” At
the time that the underlying transactions occurred,
the term “financial institution” only included federallyinsured institutions. This definition was not expanded
to include non-insured mortgage lenders until 2009,
after the underlying acts occurred. See, Pub. L. 11121. Consequently, prior to that date, the limitation
for prosecuting bank and mail fraud involving nonfederally-insured institutions or other garden-variety
federal fraud was subject to a five-year period,
assuming federal subject-matter jurisdiction exists.
18 U.S.C. § 3282(a). Since mortgage lenders were not
within the federal subject-matter jurisdiction during
the years at issue, a federal crime could not have been
committed. As to mail fraud, the government needed
to show that a financial institution was affected for
the ten-year statute of limitation to apply.
Each of the underlying transactions occurred
outside of the applicable statute of limitation periods.
Petitioner was indicted on April 11, 2017. The initial
2004 purchase and the 2005 refinancing involved
non-federally-insured institutions. Those transactions
were time-barred by both the five-and ten-year limi­
tation for mail fraud count and do not qualify as
bank fraud. The 2006 line of credit transaction was
also time-barred. The April 16, 2007 conveyance was
with a non-federally-insured institution. It was also
time-barred.
As discussed above, uncontroverted evidence
shows that Petitioner was not involved with the buyer’s
subsequent HELOC and had no knowledge of this
transaction, thereby preventing her from knowingly
making false statements to a bank or obtaining bank

31

property. No witness testified that Petitioner was
informed of or presented with documents that iden­
tified Kwan’s HELOC lender. No witness testified that
Petitioner knew that Kwan’s HELOC or any of the
other transactions, which constituted the “scheme”
would occur when that “scheme” supposedly started
in 2004. The government’s glaring failure to show
Petitioner’s knowledge leaves her without the intent
required for her conviction. The Seventh Circuit’s
misapprehension of the facts shows the harm and
confusion that duplicitous counts can cause and how a
government can easily manipulate facts to fill eviden­
tiary gaps. If the Seventh Circuit confused the evidence
in the record, there is no doubt that the jury too was
confused and misled.
The security provided by statutes of limitations
is threatened if the government is authorized to
straddle unrelated transactions by simply calling it a
scheme. The Seventh Circuit’s opinion which denies
due process protections to Petitioner and future
defendants, is a departure from precedential and
statutory authority and allows confusion between the
circuits to continue.
The aggregation of these distinct transactions does
not change this conclusion, nor does it vanquish the
elements of the charged crimes. This was precisely
the government’s intention for straddling out-of-statute
transactions: to create the illusion of overwhelming
evidence to support its executing 2007 transaction.
The lower courts’ decisions can only refer to the outof-statute transactions when it explains factual proofs
and only surmise when it comes to the executing
transaction. The evidence at trial highlighted the
isolated and disconnected aspects of these four separate

32

transactions which lacked the requisite nexus, inter­
relatedness and continuing characteristics. Each was
separated by time; involved different types of trans­
actions including mortgages, financings, and separate
revolving lines of commercial and non-commercial
credit; and involved eight different lenders. No single
borrower was involved in all of the transactions. Both
law and policy favoring repose were trampled by
artificially linking these transactions with more dis­
similarities than similarities to bypass the statute of
limitations period.
This forced assimilation is also contrary to law
holding that each transaction constituted a completed
occurrence, distinct and unrelated to the next, and
not a continuing offense. Toussie held that a crime
cannot be treated as a continuing offense unless Con­
gress has stated that intent in the underlying statute.
The bank and mail fraud statutes cannot be treated
as continuing offenses because Congress did not
include any such intent in those statutes.
Consistent with Toussie, the Seventh Circuit in
US. v. Anderson, 188 F.3d 886, 888, 889 (7th Cir. 1999)
held that different transactions involving bank fraud
are distinct from each other because each terminates
when the lender is placed at risk: “[Blank fraud is
complete when the defendant places the bank at risk
of financial loss, and not necessarily when the loss
itself occurs . . . [The] bank fraud statute is meant to
punish each execution of the scheme to defraud, and
not each act in furtherance of the scheme to defraud.”
See also, U.S. v. Ajayi, 808 F. 3d 1113, 1120 (7th Cir.
2015). Here, the government alleged that each of the
transactions, individually, constituted bank fraud.
Pursuant to Anderson, each of these transactions was

33

therefore completed and separated from the next
when and if each institution was at risk of loss and
all of the elements of the crime had occurred. As fact­
ually and legally completed, distinct acts, they should
not have been straddled to the 2007 transactions to
create a “scheme.” The Seventh Circuit’s disregard of
Anderson ignored precedent from its own circuit.
Identifying what crimes are continuing offenses
has been a chaotic exercise for federal courts, leading
to conflicting approaches which result in splits. Scheme
to defraud allegations have been abused, misused
and overused by prosecutors, with protections afforded
by the statutes of limitations being taken away. “Vital
to our sense of justice is the notion that we may not
subject someone indefinitely to the threat of potential
criminal punishment.” U.S. v. Frequency Elecs., 862
F.Supp. 834, 843 (E.D.N.Y. 1994).
The Seventh Circuit’s brief treatment of this issue
is in conflict with contrary holdings by other circuits,
necessitating this Court’s guidance to address the
issue of whether bank and mail fraud are continuing
offenses. See, e.g., US. v. Smith, 740 F.2d 734, 736
(9th Cir. 1984) (a crime is “complete” as soon as
every element of the crime has occurred); U.S. v.
Reitmeyer, 356 F.3d 1313, 1322 (10th Cir. 2004) (“If
Congress intended the [crime] to be continuing offense,
it could have clearly stated so.”); U.S. v. Niven, 952
F.2d 289, 293 (9th Cir. 1991) (mail and wire fraud
not a continuing offense); U.S. v. Scarano, 975 F.2d
580, 585 (same); U.S. v. St. Gelais, 952 F.2d 90, 97
(5th Cir. 1992) (“It is not the scheme to defraud but
the use of the mails or wires that constitutes mail or
wire fraud.”); U.S. v. Miro, 29 F.3d 194, 198 (5th Cir.
1994) (mail fraud is not a continuing offense); U.S. v.

34
Najjor, 255 F.3d 979, 983 (9th Cir. 2001) (bank fraud
is a continuing offense); U.S. v. Otto, 742 F.2d 104,
107 (3rd Cir. 1984) (“[T]he applicable statute of lim­
itations balances the government interest in prosecu­
tion with the need to protect who may lose their
means of defense.”).
The Seventh Circuit’s opinion which denies these
protections to Petitioner and future defendants, is a
departure from precedential and statutory authority
and allows confusion between the circuits to continue.
This petition provides the Court with an opportunity
to finally resolve these issues.
III. The Aggregation of Distinct, Completed
Transactions into a Single Count Constituted
Improper Duplicity Which Deprived Petitioner
of Her Constitutional Rights

Federal law is clear. The joining of two or more
offenses in the same count (duplicity) is a fatal defect.
See, Fed. R. Crim. P. 12(b)(3)(B)(i). The government’s
hitching together of four separate, distinct and
completed transactions constituted a duplicitous
scenario that was vague and confusing to the jury
and deprived Petitioner of constitutional rights.
Duplicity is the joining of two or more offenses in
a single count. U.S. v. Hughes, 310 F.3d 557, 560 (7th
Cir. 2002). When a defendant argues that a charge
against him is duplicitous, the issue is whether the
indictment alleges in one count the commission of mul­
tiple acts in violation of the same statutory provision,
or alleges separate and distinct offenses in the same
count. The former situation is proper, the latter is not.
U.S. v. Orzechowski, 547 F.2d 978, 986 (7th Cir. 1976).

35

The government’s assemblage of the transactions
herein is rife with duplicity. There was no commonality
among them. They took place on different dates over
the course on a not unsubstantial three-year period.
No one person was involved with all of them. They
involved different types of transactions with different
types of institutions. There was no common goal or
objective. As stated above, they were not ongoing parts
of a single continuing transaction. They were consid­
ered to each have been a completed transaction.
Anderson, 188 F.3d at 889. As such, they are exactly
what they appear to be: four isolated, distinct and
completed transactions. Stringing them into a single
count, lumping together non-bank and bank transac­
tions so that otherwise time-barred transactions can
be resurrected, is the very definition of duplicity.
Even the district judge recognized this when it
stated that it would use special jury instructions to
“mitigate against [t]he overall vice of duplicity7’.
(App.ll6a). Despite this, the district judge denied
Petitioner’s request for such special jury instructions.
Instead, the jury was instructed that:
“For purposes of Count One, in considering
whether the government has proven a scheme
to defraud, the government must prove that
one or more of the false or fraudulent pre­
tenses, representations, or promises charged
in the portion of the indictment describing
the scheme be proved beyond a reasonable
doubt. The government, however, is not re­
quired to prove all of them.” (App.ll8a).
“For purposes of Count Two . . . the govern­
ment must prove at least one of the false
pretenses, representations, promises, or con-

36

cealment of material facts charged in the
portion of the indictment describing the
scheme beyond a reasonable doubt. However,
the government is not required to prove all
of them ...” (App.ll8a-119a).
The result was jury confusion. “The overall vice
of duplicity is that the jury cannot in a general
verdict render its finding on each offense, making it
difficult to determine whether a conviction rests on
only one of the offenses or both.” US. v. Buchmeier,
255 F.3d 415, 425 (7th Cir. 2001) (quotation marks
and citation omitted). Put another way, “collapsing
separate offenses into a single count . .. prevents the
jury from convicting on one offense and acquitting on
another.” U. S. v. James, 749 F. Supp. 2d 705, 708
(S.D. Ohio 2010) (quoting U. S. v. Campbell, 279 F.3d
392, 398 (6th Cir. 2002)).
In Petitioner’s case, the amalgamation of the
separate transactions into a single count deprived
her of the constitutional right to a unanimous verdict
of the jurors regarding each and all of the transac­
tions. For instance, she could have been convicted
with three jurors finding her guilty regarding the
2004 transaction, a different three finding her guilty
regarding the 2005 transactions, yet another three
finding her guilty regarding the 2006 transactions
and still three others finding her guilty regarding the
2007 transactions.
The verdict form perpetuated this confusion by
allowing the jury to only find Petitioner innocent or
guilty of each count, without specifying any unanimity
regarding any particular transaction.

37

This duplicity also violated Petitioner’s Fifth
Amendment protection against self-incrimination.
It prevented Petitioner from exercising her Fifth
Amendment right to remain silent on some transactions
and testify about others.
The constitutional and statutory rights of any
person do not get to be ignored just because the govern­
ment is up against the ten-year statute of limitations.
The Seventh Circuit’s affirmation of Petitioner’s con­
viction never addressed these constitutional infirmities.
This case gives the Court the opportunity to do so.

CONCLUSION
For the foregoing reasons, the Petition for Writ of
Certiorari should be issued by this Court.
Respectfully submitted,
Jessica Arong O’Brien
Petitioner Pro Se
1131S. Park Terrace
Chicago, IL 60605
(312) 965-9604
17CR2390BRIEN@GMAIL.COM

November 25,2020

